C3

No.

IN THE
SUPREME COURT OF THE UNITED STATES

1 If

MICHAEL STOREY

(Your Name)

* »i

^ i
i

i-.!i

J

vs.
CTTY OF ALTON

—. RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TC

FILED
JUL 1 2 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

-------------------- ABP-ELIATE COURT OF IL 5TH DISTRICT---------------------

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

MICHAEL STOREY

(Your Name)

j >

t

2

i
i

/

I

PO BOX 112

(Address)
COTTAGE VHILLS IL 62018
(City, State, Zip Code)

(Phone Number)
1

RECEIVED
JUL 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

;

TABLE OF CONTENTS
TABLE OF CONTENTS
PETITION FOR WRIT

1

QUESTIONS PRESENTED

2

LIST OF PARTIES

3

TABLES OF AUTHORITIES CITED

5

OPINIONS BELOW

6

JURISDICTION

7

CONSTITUTIONAL AND STATUTORY PROVUSIONS INVOLVED

8

REASONS FOR GRANTING THE WRIT

9

STATEMENT OF THE CASE

10

CONCLUSION

11

PROOF OF SERVICE

I

QUESTION(S) PRESENTED

Can a city deny a resident use of his land without due process?
Can city allow resident to develop his property then without any changes to
its Official city code stop said development?
After allowing resident to start developing his property can city claim this
type of development is not allowed?

2

List of parties
All parties appear in the caption of the case on the cover page

RELATED CASES

t

i

\

3

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

In United States constitutional law, a regulatory taking occurs when
governmental regulations limit the use of private property to such a degree that the landowner is
effectively deprived of all economically reasonable use or value of their property. Under
the Fifth Amendment to the United States Constitution governments are required to pay just
compensation for such takings. The amendment is incorporated to the states via the Due Process
Clause of the Fourteenth Amendment.
Pennsylvania Coal v. Mahon (19221
Penn Central Transportation Co. v. New York City. 438 U.S. 104 (1978).
Lucas v. South Carolina Coastal Council
Agins v. Tiburon, 447 U.S. 255 (1980).
Nollan v. California Coastal Commission
Dolan v. City of Tigard, 512 U.S. 374 (1994)

STATUTES AND RULES

OTHER

4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix ...&
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the circuit court thtrp judicial CIRCUIT court
appears at Appendix b to the petition and is
MADISON COUNTY
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
6

i

JURISDICTION

. V

V

i

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_____________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

f 1 For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix r

-33-20

[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix_&
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

7

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
The Fifth Amendment to the Constitution clearly states that Americans
cannot be deprived of their property without due process of law. Respondent
made no effort to use the courts to stop petitioner from the use of his land.
Respondent used regulatory taking to stop petitioner. Respondent's actions to
stop the project came after respondent had allowed petitioner to start project
and construct 2 sites on the property which violated the principle of Estoppel.

8

REASONS FOR GRANTING THE PETITION
Respondent is violating petitioner's Constitutional rights provided under
the Fifth Amendment. The Petitioner has used regulatory taking to deprive
petitioner of his property without due process.
Respondent has demonstrated petitioner has the right to use his property
for a manufactured home community by allowing petitioner to start construction
of the project and issuing permits for such. Respondent has taken petitioner's
land without any action by the courts or respondent's city council giving it
authority to do such.
Respondent cannot be allowed to continue to deprive petitioner of his
property without due process.

9

STATEMENT OF THE CASE
Petitioner is the owner of property with-in Respondent's jurisdiction.
Respondent agreed both verbally and in writing said property is properly
zoned for and could be used as a manufactured home community and lots in that
community could be sold to third parties.
Respondent did allow Petitioner to develop part of his property in line with
his agreement with Respondent but without any due process stopped Petitioner
from completing the project and has virtually taken Petitioner's property.
Respondent has failed to present any documents to the Petitioner or any
court to suggest the property cannot be used for this purpose.
Respondent has failed to use due process of the law to prevent Petitioner
for the purpose it is zoned for.
Respondent has advised Petitioner that the property cannot be used for
any purpose that requires any type of structure.
Petitioner purchased the property for the sole use as a manufactured home
community which the Respondent refuses to allow.
Respondent has taken Petitioner's property without due process of the law
as required under the Fifth Amendment to the Constitution.

1o

CONCLUSION
Petitioner is the rightful owner of the property. Respondent agreed said
property is zoned for use as a manufactured home community with lots to be sold
to third parties. Respondent allowed petitioner to divide and sell lots in 2002.
These actions by respondent establish a history and basis for estoppel that
allows petitioner to continue with his development.
Respondents defense claim that petitioner has no right to develop his
property is made null and void by respondent's previous acts of allowing
petitioner to develop part of this tract. Once respondent allowed petitioner to
divide, develop and sell part of the tract respondent verified petitioner had the
right to complete the development as a manufactured home community.
These actions also demonstrate respondent has the ability and authority to
act as petitioner asks for in his writ of Mandamus. Petitioner is not asking
respondent to perform any duty it has not previously performed.
Petitioner encountered a large loss in actual damages caused by
respondent's actions in originally allowing him to start the development and then
stopping him from completing said development.
Respondent is liable for petitioner's losses and should be ordered to
compensate petitioner for such.
The Petition for a writ of certiorari should be granted.
Respectfully submitted.
Michael Storey

11

